OIG Investigative Reports, Indictment of 17 Individuals Announced
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Thursday, January 23, 2002
P.O. Box 366269
San Juan, PR 00936
Indictment of 17 Individuals Announced
Guillermo Gil, United States Attorney, District of Puerto Rico; Jane M. Erickson, Assistant Special Agent in Chargeof Public Corruption matters for the FBI in Puerto Rico; Donald Reid, Assistant Inspector General for Investigations, Office of the Inspector General (OIG), U.S. Department of Education, and Manuel Diaz Saldana, Office of the Comptroller of Puerto Rico, announced today the indictment of the following individuals:
Victor Fajardo-Velez, former Secretary of the Puerto Rico Department of Education(PRDE)
Jose Omar Cruz-Mercado, Associate Secretary of the PRDE
Maria Ramos-Matos, also known as "Bibi," representative for	National Consulting Group
Ruperto Vazquez-Lopez, President of RV Research and Management Group, Inc.
Jesus E. Rivera-Class, President and owner of Quality Educational Services, Inc.
Eduardo Fuertes-Pasarell, owner of Pro Data Services, Inc.
Jose E. Santos-Rodriguez, "Consultores Educativos Y	Psicologicos" (CONEP)
Victor J. Alvarez-Ramos CONEP
Fidel Alonso-Valls, President and owner of PRODECEN, Inc.
Richard D'Costa-Ofrey, President and owner of Universal Career Counseling Center
Victoria Vargas-Esquilin, President and owner of World Learning Systems, Inc.
Norman T. Olson, president and owner of National School Services of Puerto Rico, Inc.
Marta J. Santos-Sanchez, representative of National School in Puerto Rico
Maritere Perez-Huertas, former PRDE Special Assistant
Roberto O. Bonano-Rodriguez, Attorney contracted by the PRDE to reclassify personnel
Angel A. Pabon-Molina, SAJA Creative Projects, Inc.
Sylvia Janet Lopez-Velez, SAJA Creative Projects, Inc.
The defendants were indicted for violation of Title 18, United States Code (U.S.C.) Section 1951 and 2, "Conspiracy to Interfere with Commerce by Extortion induced by Economic Fear and/or Under Color of Office Right"(Hobbs Act); "Theft concerning Programs Receiving Federal Funds," Title 18, U.S.C., Section 666; "Conspiracy to Commit Money Laundering, Title 18, USC, Section 1956 (h) and "Money Laundering Forfeiture Allegations" Title. l8, U.S.C., Section 982.
According to the indictment, between 1994 and September, 2000, the defendants conspired to unlawfully attempt to obstruct and affect commerce by extortion and to obtain monies for defendants Victor Fajardo-Velez, Maria Ramos-Matos, Jose Omar Cruz-Mercado, Ruperto Vazquez-Lopez and Maritere Perez-Huertas. The indictment alleges that Fajardo-Velez and Cruz-Mercado kept a safe in the office of defendant Fajardo-Velez in order to stash large amounts of currency extorted from PRDE contractors. In addition, the defendant Fajardo-Velez recruited the services of his sister-in-law, defendant Maria Ramos-Matos and RupertoVazquez-Lopez to act as main representatives of two corporations in order to divert PRDE funds as well as extortion money paid by different contractors of PRDE.
It is further alleged that Fajardo-Velez and Cruz-Mercado requested from PRDE contractors approximately 10% of their total contract amount. The payment was to be made in cash or by the payment of outstanding invoices of their political party. Between 1995 and 2000, defendant Fajardo-Velez awarded approximately $138,060,396.00, in contracts to four corporations owned by other defendants.  In returned, Fajardo-Velez was paid $745,000.00 in kickbacks. In addition, on October 10, 2000, defendant Jesus Emilio Rivexa delivered to co-defendant Ramos-Matos a check for $750, 000.00 made payable to National Consulting, subsequently defendant Fajardo-Velez used the money to purchase a property that Rivera owned at Highway #2, Villa  Caparra Guaynabo, Puerto Rico. Moreover, between October 1996, and June 2000, defendants Fajardo-Velez, and Cruz-Mercado demanded from defendants cash and the payment of invoices of expenses incurred by their political party totaling approximately $460,339.00. It is also alleged that Fajardo and Crux Mercado extorted approximately $4.3 million from pRDE contractors.
This investigation was conducted by the FBI San Juan, and the Office of Inspector General (OIG), U.S. Department of Education, in coordination with the Office of the Comptroller of Puerto Rico and the United States Attorney's Office.
Penalties for convictions of the offenses alleged in the indictment, range from 10 years to 20 years. The public is reminded that an indictment contains only charges and is not evidence of guilt. The defendants are presumed innocent and are entitled to a fair trial and the government has the burden of proving guilt beyond a reasonable doubt.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov